                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-09-01-0003                                                                 Page 1 of 1



         This investigation was initiated based on a proactive review of awards for which 20% or more of
         the award funds were drawn-down in the last quarter of the award. A review of NSF databases
         revealed an institution I which had an award2 that met this criterion.

         Subsequent investigation, which included a through review of source documentation, revealed
         that all charges to this award were incurred during the award period. There were no indications
         of fraud or other wrongdoing.

         Accordingly, this investigation is closed.




         2




NSF 01G Form 2 (1Il02)
